WILSON,S NNING
0IHI

E-Mail Address:
briefs@wilsonepes.com

775 H Street, N.E.
Washington, D.C. 20002

Web Site:
www.wilsonepes.com

Tel (202) 789-0096
Fax (202) 842-4896

Nos. 20-37, 20-38
NORRIS COCHRAN, ACTING SECRETARY OF HEALTH AND
HUMAN SERVICES, et al.,
Petitioners,
v.
CHARLES GRESHAM, et al.,
Respondents.
STATE OF ARKANSAS,
Petitioner,
v.
CHARLES GRESHAM, et al.,
Respondents.
AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that on February 26, 2021, three (3) copies of the BRIEF OF HEALTH
CARE PROVIDER ORGANIZATIONS AND PATIENT GROUPS AS AMICI CURIAE IN
SUPPORT OF RESPONDENTS in the above-captioned case were served, as required by U.S.
Supreme Court Rule 29.5(c), on the following:
NICHOLAS JACOB BRONNI
Solicitor General of Arkansas
ARKANSAS ATTORNEY GENERAL'S OFFICE
323 Center St., Suite 200
Little Rock, AR 72201

IAN HEATH GERSHENGORN
JENNER & BLOCK
1099 New York Avenue, NW, Suite 900
Washington, DC 20001
Counsel for Respondents Charles Gresham, et al.

Counsel for Petitioner State of Arkansas
ELIZABETH B. PRELOGAR
Acting Solicitor General
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Counsel for Petitioners Norris Cochran, Acting
Secretary of Health and Human Services, et al.

LAURA E. B. LOMBARDI
NEW HAMPSHIRE DEPARTMENT OF JUSTICE
33 Capitol Street
Concord, NH 03301-6397
Counsel for Respondent New Hampshire
Department of Health and Human Services

The following email addresses have also been served electronically:
nicholas.bronni@arkansasag.gov
SupremeCtBriefs@USDOJ.gov
IGershengorn@jenner.com
laura.lombardi@doj.nh.gov
ken.choe@hoganlovells.com

R. vt)

ROBYN DORSEY WILLIS
WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.
Washington, D.C. 20002
(202) 789-0096
Sworn to and subscribed before me this 26th day of February 2021.

COLIN CAS HOGAN
NOTARY PUBLIC

District of Columbia
My commission expires April 14, 2022.

